U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          OFFICE OF THE SECRETARY

          Information Security Requirements
     Need To be Included in the Department’s
    Information Technology Service Contracts


        Final Inspection Report No. OSE-14788/May 2002




                           PUBLIC
                           RELEASE



                         Office of Systems Evaluation
